KYLE D. HAWKINS
Solicitor General

(512) 936-1700
Kyle.Hawkins@oag.texas.gov

December 11, 2020
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

PHI Air Medical, LLC v. Texas Mutual Insurance Company, et al., No.
20-748

Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4 and the Court’s Order of March 19,
2020, Respondent Texas Department of Insurance, Division of Workers’
Compensation, respectfully moves for an extension of the time for filing its response
to the petition for a writ of certiorari in this matter.
Petitioners filed their petition for a writ of certiorari on November 23, 2020, and
it was docketed on December 1, 2020. Respondent’s brief is currently due on
December 31, 2020. Respondent requests a 60-day extension of that deadline, for a
new filing date of March 1, 2021.
Petitioner has advised that it does not oppose the requested extension.
The extension is necessary because lead counsel for Respondent was not
personally involved in the matter before the Supreme Court of Texas and has had
numerous briefing and argument obligations since Petitioners filed their petition for
certiorari on November 23. Lead counsel’s caseload has significantly increased due
to COVID-19-related litigation involving the State of Texas and its officials. Lead
counsel’s obligations include:
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Page 2
• December 1 – Brief in opposition filed in City of Austin v. Paxton, No. 19-1441
(U.S.);
• December 2 – En banc brief filed in Whole Woman’s Health v. Paxton, No. 1751060 (5th Cir.);
• December 23 – Opening brief on the merits due in Richardson v. Hughs, No.
20-50774 (5th Cir.).
• January 11 – Brief in opposition due in Ysleta del Sur Pueblo, et al. v. Texas,
No. 20-493 (U.S.).
• January 21 – En banc oral argument in Whole Woman’s Health v. Paxton, No.
17-51060 (5th Cir.).
In addition, undersigned counsel is scheduled to take vacation time around the
holidays in December and January.
For the foregoing reasons, Respondent respectfully requests a 60-day extension
of the deadline to file its response to the petition for a writ of certiorari, creating a
new deadline of March 1, 2021.
Respectfully submitted.
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
cc:

Paul D. Clement (via e-mail)
Matthew B. Baumgartner (via e-mail)
James M. Loughlin (via e-mail)

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

